<html>
<title> - MODERNIZING INFORMATION DELIVERY IN THE HOUSE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






             MODERNIZING INFORMATION DELIVERY IN THE HOUSE

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT

                                 of the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                 Held in Washington, DC, June 16, 2011

                               __________

      Printed for the use of the Committee on House Administration




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html





                  U.S. GOVERNMENT PRINTING OFFICE
67-667                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                   COMMITTEE ON HOUSE ADMINISTRATION

                DANIEL E. LUNGREN, California, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania,
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 CHARLES A. GONZALEZ, Texas
RICHARD B. NUGENT, Florida

                           Professional Staff

            Philip Kiko, Staff Director and General Counsel
                  Jamie Fleet, Minority Staff Director
                                 ------                                

                       Subcommittee on Oversight

                 PHIL GINGREY, M.D., Georgia, Chairman
AARON SCHOCK, Illinois               ZOE LOFGREN, California
RICHARD B. NUGENT, Florida           CHARLES A. GONZALEZ, Texas
TODD ROKITA, Indiana

 
             MODERNIZING INFORMATION DELIVERY IN THE HOUSE

                              ---------- 


                        THURSDAY, JUNE 16, 2011

                  House of Representatives,
                         Subcommittee on Oversight,
                         Committee on House Administration,
                                                     Washington, DC
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
room 1310, Longworth House Office Building, Hon. Phil Gingrey 
(chairman of the subcommittee) presiding.
    Present: Representatives Gingrey, Nugent, and Lofgren.
    Staff Present: Phil Kiko, Staff Director and General 
Counsel; Peter Schalestock, Deputy General Counsel; Kimani 
Little, Parliamentarian; Joe Wallace, Legislative Clerk; Yael 
Barash, Assistant Legislative Clerk; Salley Wood, 
Communications Director; Linda Ulrich, Director of Oversight; 
Dominic Stoelli, Oversight Staff; Reynold Schweickhardt, 
Oversight Staff; Jamie Fleet, Minority Staff Director; Kyle 
Andersen, Minority Press Secretary; Matt Defreitas, Minority 
Professional Staff; Khalil Abboud, Minority Elections Staff; 
Thomas Hicks, Minority Elections Counsel; and Mike Harrison, 
Minority Professional Staff.
    Mr. Gingrey. I will now call to order the Committee on 
House Administration Subcommittee on Oversight for today's 
oversight hearing on modernizing information delivery in the 
House. The hearing record will remain open for 5 legislative 
days so that Members may submit any materials that they wish to 
be included therein.
    A quorum is present, so we may proceed.
    Central and integral to our oversight responsibility is 
ensuring efficiency and transparency in how we, the House, 
create and disseminate legislative information. Today, we are 
interested in learning from our witnesses about how we can 
improve information delivery in the House, how we can improve 
the way we create and distribute legislative documents, and how 
we reduce costs and increase transparency.
    I am eager to hear from our knowledgeable witnesses about 
their experiences and, of course, recommendations as we seek to 
improve both of these aspects: the creation and the delivery of 
legislative information.
    In today's environment, we have no choice but to cut long-
term costs, eliminate unnecessary printing, adapt to the 
electronic delivery of information, and bring more 
transparency, accessibility, and accuracy to the legislative 
process.
    We are approaching the 20th anniversary of the GPO 
Electronic Information Access Enhancement Act of 1993, which 
began the transition to electronically based legislative 
information. Title 44, the statute governing our paper-based 
requirements, has not been seriously and properly reformed and 
updated in decades. Now is the time to reevaluate and revisit 
these laws and bring our information delivery system into this 
21st century.
    We need to reevaluate what documents we need to maintain in 
hard copy and which ones can be made solely available 
electronically. For example, it is estimated that only 3 
percent of introduced bills in the House ever become law. 
However, the House spends $1.7 million annually printing all 
introduced bills, every one of them. And while we know from our 
last hearing, that for some publications approximately 70 
percent of the costs are related to preproduction, perhaps it 
is worth considering only printing bills that are reported by 
committee or are actually going to be considered on the House 
floor.
    Finally, we should utilize our collective wisdom. During 
the 112th Congress, both the Rules and the Natural Resources 
Committees have been experimenting with cost-savings measures 
in relation to markups and committee documents, respectively.
    I would like to thank both Chairman Dreier and Chairman 
Hastings for their submitted statements describing what they 
have learned. I request unanimous consent that we include these 
two statements in the record. Hearing no objection, so ordered.
    Again, I look forward to hearing from our witnesses as we 
continue to reduce government spending and increase efficiency 
and transparency.
    I would now like to recognize my colleagues, starting with 
Congresswoman Lofgren, for the purpose of providing her opening 
statement. I turn it over to Congresswoman Zoe Lofgren.
    Ms. Lofgren. Thank you very much, Mr. Chairman. And I 
welcome today's hearing on modernizing information delivery in 
the House of Representatives. As a Member representing Silicon 
Valley, I know the importance that technology can have on 
adding productivity and maximizing efficiency in the workplace.
    As I was mentioning to my colleague Mr. Walden, I first 
came here in the 1970s as a young staffer, and the House was 
using typewriters and carbon paper at that time, and something 
called a Robo Machine, which was a tape with little holes 
punched in it. When I came back as a Member in 1995, not every 
office had a computer, e-mail was in its infancy, most Members 
did not have Web pages. Blackberrys, smart phones, a necessity 
in today's work environment, weren't in wide use until after 
2011.
    Change sometimes comes slowly to a body that is based on 
traditions and precedent. However, we have been embracing new 
technology at an accelerated pace over the last 2 years, 
particularly under the leadership of Representative Bob Brady, 
the former chair of this committee, who I would like to single 
out for tremendous credit for the leadership that he showed in 
this area.
    During the last Congress, the committee oversaw a number of 
technology initiatives for the House. We redesigned the 
house.gov Web site to make it easier for visitors to navigate. 
We initiated HouseLive, a searchable video database of floor 
proceedings. We started posting statements of disbursements 
online, reducing the need for printed copies. We consolidated 
individual servers in Member offices to centralize location, 
reducing energy and resources required for computer operations, 
and also increasing cybersecurity.
    We increased Internet bandwidth for most district offices, 
and installed a campus-wide wireless network. We started 
supporting Apple products, including desktops, iPhones and 
iPads, and we are testing Voice-over-Internet Protocol, known 
as VoIP, a system for House implementation.
    These improvements help Members and their staff work more 
efficiently, but also provide the American people more access 
to information on our branch of government.
    One of the most important partners that Congress has in 
terms of disseminating legislative information to the public is 
the Government Printing Office. And just as Congress has 
changed, adapted, integrated technology, so has the GPO. Going 
back to my first time here as a staffer, the GPO is not the 
same. When I started in the 1970s as a staffer, printing was an 
important function of the GPO, but they had around 8,000 
employees at that time. The GPO today is down to 2,200. They 
have streamlined their workforce and are using technology. 
Since the GPO has started making government documents available 
online at gpo.gov, this has been one of the government's most 
visited sites.
    On the ink and paper side, 70 percent of the printing GPO 
is responsible for is done by outside contractors. GPO's 
printing procurement program continues to be one of the 
government's longest-running partnerships with the private 
sector, saving millions of taxpayers' dollars per year, and 
creating jobs and tax revenues in States and localities 
nationwide. Moving forward, I hope the GPO continues to be a 
close partner with us in providing documents for the 
legislative branch and the general public.
    I think it is important to have this hearing because 
although we have made tremendous progress, we always seek 
further improvements. And I look forward to hearing from our 
witnesses today, and yield back the balance of my time, Mr. 
Chairman.
    Mr. Gingrey. Thank you, Congresswoman Lofgren.
    Does any other Member wish to be recognized for the purpose 
of making an opening statement?
    I would now like to introduce our first witness. The 
Honorable Greg Walden represents the Second Congressional 
District in the great State of Oregon. Elected in 1998, this is 
Congressman Walden's seventh term in the U.S. House. A former 
small business owner, he is chairman of the Energy and Commerce 
Subcommittee on Communications and Technology, and has served 
as chairman of the House Republican leadership since February 
of 2010. He is also a deputy whip, and he chaired the majority 
transition team for Speaker Boehner after the 2010 midterm 
elections. In that role, Congressman Walden and his colleagues 
analyzed House practices and procedures for ways to improve 
efficiencies, increase the effectiveness of the House, and to 
reduce costs to the taxpayer.
    Congressman Walden has a bachelor of science degree from 
the University of Oregon, and was a member of the Oregon State 
House of Representatives from 1989 to 1995, and the Oregon 
State Senate from 1995 to 1997.
    On the first panel, our second witness is my colleague, our 
colleague, the Honorable Michael Honda. Congressman Honda 
represents the 15th Congressional District of California. He is 
a member of the Appropriations Committee, a member of the 
Budget Committee, a House Democratic senior whip, and cochair 
of the Democratic Caucus's new media working group. Congressman 
Honda has been a California State Assembly member, a Santa 
Clara County Board supervisor, a San Jose planning 
commissioner, a Peace Corps volunteer in El Salvador, and a 
teacher, principal, and school board member. In 2000, 
Congressman Honda was elected to the House, where he has served 
ever since.
    Ms. Lofgren. And if the gentleman would yield, Mr. Honda is 
also my neighbor in Santa Clara County, and someone who I have 
served with in local and Federal Government for 30 years.
    Mr. Gingrey. Very happy to yield to the ranking member. And 
that prompts me to say that Congressman Walden is my neighbor 
on North Carolina Avenue here in Washington. I wish he would 
keep his yard in a little bit better shape.
    Finishing up with my introduction of Congressman Honda, he 
earned a bachelor's degree in biological sciences and Spanish, 
a master's degree in education from San Jose State University.
    Congressmen, we both thank you for being here today. The 
committee has received your written testimonies, and I will 
recognize each of you for 5 minutes to present a summary of 
your submissions. To help keep that time, we have a timing 
device near the witness table. The device will emit a green 
light for 4 minutes, and it will turn yellow when 1 minute 
remains. And when the light turns red, it means your time has 
expired. For my colleagues, the gavel will be quite soft.
    Congressman Walden, we will start with you. Please proceed.

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman. It is an honor and 
delight to be before your subcommittee here. I recognize you 
and your ranking member, Ms. Lofgren. And Congressman Nugent, 
always good to see you. I want to commend this committee, both 
in its current configuration and in its prior iterations, for 
the work it has continued to do in a bipartisan way to reform 
how the House operates.
    When Speaker-designee Boehner asked me to chair the 
transition team, I approached it from the notion that it was 
the people's House, the public's business, the taxpayers' 
money, and they should have the right to watch and participate 
in the process, and that we had an obligation to make sure that 
their precious dollars were spent as efficiently and minimally 
as possible.
    We created a 22-member team, including four freshmen. I 
reached out to Speaker Pelosi's office and asked them to 
designate Representatives from the Democratic Caucus. And they, 
fortunately, gave me two outstanding Members, Mr. Andrews and 
Bob Brady from this committee. We solicited every Member in the 
House, current, and their staff. I, like your colleague there, 
Chairman, served on congressional staff in the 1980s. And while 
I wasn't here to learn about the Robo-tape, when we got here I 
was the recipient of the memory typewriter, though, because I 
was press secretary. That meant I didn't have to retype the 
Congressman's biography every time it needed to go out. I could 
push a button. It was remarkable. But we still had typewriters.
    And then I was here when we got our first XT IBM PC and had 
to figure out that the floppy disk in the drive was the reason 
you couldn't do anything because it would give you that error 
message.
    Anyway, you all understand that. We have come a long way, 
is the long and short of it. And as we approached the 
transition, I invited back people who had led transitions 
before. Jim Nussle, who coordinated the 1994 transition. I 
said, tell us lessons learned. What did you find? What did you 
change? The same with Mike Capuano. I asked him to have lunch 
with me. We had a delightful talk about things that worked, 
things that didn't, and how we could continue to restore faith 
and confidence in this institution and bring about efficiencies 
and transparency.
    I know Jim Nussle mentioned that in 1994 they were still 
delivering ice to each office. Now, ice was a delivery that was 
begun before refrigeration and only stopped in 1995. And it 
saves taxpayers about a half a million dollars a year. So we 
began to look for ice buckets of our own. What was working, 
what wasn't? And in a bipartisan way, we decided the composting 
attempt didn't work. And both parties agreed that the way it 
was configured it was probably an idea ahead of its time and 
not as efficient or cost savings as anticipated. So it went 
away.
    We also reduced our own budgets by 5 percent. We looked at 
a number of other things that needed to be done. And then we 
solicited the public. And I think your committee is the 
beneficiary of over 2,000 responses we got. Some of them you 
probably don't want to print publicly. But most of them were 
very helpful.
    And the staff I think really were helpful. My wife and I 
were in small business for 22 years. And I always enjoyed 
filling in on the vacation shifts at our radio stations because 
I could really learn what our folks were dealing with firsthand 
and then work to improve and gain efficiencies.
    If you go in my chief of staff's office or in our back 
legislative office in the Rayburn Building offices, you will 
see upwards of 50 file cabinets. Those originated in the days 
when you had typewriters and carbon paper and you filled files. 
Today, we click a place on a piece of software and file a 
document. So then that really leads us to how we can tighten 
our belts here.
    GPO received $147.46 million in 2010, with $93.7 million 
appropriated for congressional printing and binding. I have 
before me here some documents that I am not saying you get rid 
of these, but let's talk about going forward, some make sense, 
some may not.
    We always continue to improve. These are the statements of 
disbursements of the House. This is a set of documents that is 
published quarterly and distributed. Does everybody need one? 
Do we have to have them published? How big? How many? Every 
Congress, they do a congressional directory. Now, that is a 
pretty handy document. You may want to keep that in written 
form. But in today's world with the changes that occur every 
minute around here, maybe an electronic is actually more up to 
date and better.
    There are periodic publications. Very nicely bound 
documents. This is Deschler-Brown-Johnson Precedents of the 
U.S. House, volume 17, chapters 34 through 40. Now, I was up 
last night going through chapter 17, but I am not sure 
everybody does this. No, I am kidding. I don't know who reads 
these other than the Parliamentarians and your colleague there. 
But do you need the printed copies? I don't know.
    The calendars are delivered every day to the House. This is 
May and June piled here. A total of $2.3 million a year. 
Congressional Record, which we all dutifully vote on almost 
every day, $2.1 million, delivered to each House office when we 
are in session. And then we send out an index every 2 weeks to 
this directory. And I would wager there aren't many Members 
that spend much time reading the hard-bound copies.
    The Federal Register gets published every day that the 
Federal Government is open. Is this the best form? Does it need 
to be distributed as widely as it is?
    I just think these are questions that we should ask. As the 
chairman said, we spend $1.7 million each year on printing 
bills that we introduce, only 3 percent of which ever become 
law. Maybe we ought to print our own bills as needed, but not 
have them printed fully.
    I realize--I couldn't see the clock, Mr. Chairman--my time 
has expired. I thank you for taking a look at these issues. I 
encourage you and applaud your work, and look forward to doing 
my part to be of assistance. Thank you, Mr. Chairman.
    Mr. Gingrey. Thank you, Congressman Walden.
    And now we will turn to Congressman Honda for his 
testimony.

  STATEMENT OF THE HON. MICHAEL M. HONDA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Honda. Thank you. And good morning, Chairman Gingrey, 
Ranking Member Lofgren, and Mr. Nugent, for allowing me and 
asking me to testify today.
    This hearing, Modernizing Information Delivery in the 
House, is extremely broad because as Members we receive 
information from many sources. This information is developed 
within the House by the Clerk's organization, the committees, 
and others, along with their Senate counterparts. Official 
legislative information is prepared and disseminated mainly 
through documents delivered in electronic and printed form by 
the Government Printing Office.
    Bills have been introduced that would cut back or eliminate 
most congressional printing, which begs the question: Is 
Congress ready to go paperless? While I wish the answer were 
``yes,'' I am extremely doubtful that old ways can be changed 
on a dime. And we saw with the recent autopen signature of a 
bill by President Obama that not everyone is ready to bring our 
legislative process into the current century.
    We are also not a society that likes to read and analyze 
everything digitally. We like to receive information digitally 
and then print electronic documents in sometimes multiple 
copies.
    When it comes to GPO documents such as bills and reports, 
it may be more expensive to eliminate GPO prints, leaving 
offices with only electronic copies that are printed at a 
higher rate. According to GPO, it costs taxpayers 7 cents for a 
Member's office to print a single-sided document. GPO can copy 
or print that same document for 5.5 cents. And if the GPO press 
were being used, it would cost taxpayers about 1 cent.
    Also these bills assert that they would save money, and the 
estimates used are often inflated. During a recent hearing that 
we held in the Legislative Branch Appropriations Subcommittee, 
I was surprised to learn that according to GPO, approximately 
68 percent of the costs producing the Congressional Record 
would be incurred, whether multiple copies were printed or not. 
This is the pre-press cost, which is used to create the 
electronic file form, which they upload online and also print. 
Again, 68 percent of the cost is incurred before the very first 
copy is printed.
    GPO has made progress in using technology to cut down the 
amount of congressional records that it needs to print. When 
GPO started offering online access in 1994, about 18,000 copies 
of the Record were printed daily. Today, GPO prints 3,600 
copies, about 900 of which are sent to local libraries and 
reading rooms in communities across the country for our 
constituents to access.
    Now, GPO has surveyed the House and Senate for their 
continued need for print copies of the Record, along with other 
print documents like the Federal Register, the first survey of 
its kind. For those offices that have told GPO they want to opt 
out of the Record, they stopped those deliveries. The goal of 
some of these bills, to decrease Congress' paper usage, is 
laudable. I believe every Member can support moving towards a 
more paperless Congress as technology allows. And I would join 
my colleagues on both sides of the aisle in finding ways to 
restructure our processes so that we can eventually get to a 
point where less and less paper is needed for this body to 
properly function.
    However, we are just not there yet. For example, when a 
Member submits a document to the body, whether it is a bill, 
extension of remarks, or an amendment, he or she is required to 
sign that document as verification for the Clerk that it is the 
official document that Member intended to submit. And as an 
individual, when I write a bill I like to see that in print, 
too. There certainly is technology out there that would allow 
Members to provide an electronic signature for these documents. 
But to my knowledge, the House has no infrastructure in place 
for using this technology.
    Furthermore, any effort to modernize the House way of doing 
business would also have to be joined by the Senate. It would 
be impractical for the House to send the Senate digitally 
signed copies of bills and for the Senate to still send us 
paper copies.
    Again, the goal of some of these bills, to decrease 
Congress' paper usage, is credible; but we must caution 
ourselves against imprudently going paperless without putting 
the necessary infrastructure in place that would allow us to 
reach those goals in a constructive way.
    So as we explore ways to modernize congressional printing, 
let's make sure that we somehow don't treat GPO as the villains 
or deprive the agency of tools they need to support us in what 
we do.
    The men and women of GPO are truly our partners in the 
legislative process. At this time, we could not function 
without the Congressional Record every morning in both printed 
and electronic form, and other congressional documents, too. 
Those are the principal ways Members receive official 
information for their work. And GPO assists us in our work. 
Also, Members should know that GPO does not print anything that 
is not required or requested by Congress.
    The House Clerk, Senate Secretary, and the congressional 
committees are the drivers of many of our GPO practices. If we 
want to make it a priority to become a paperless Congress, then 
we need to start in house, and GPO will follow whatever 
business practice Congress wants. Just to put it succinctly, 
GPO will do whatever they are directed by both the House of 
Representatives and the Senate.
    Again, I thank the subcommittee for inviting me to testify 
today.
    [The statement of Mr. Honda follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gingrey. I thank both witnesses for their testimony. 
And Representative Honda, thank you for your comments in regard 
to the laudability of our efforts in regard to what we are 
trying to do here in this hearing, and, in particular, the last 
paragraph of your printed statement in regard to GPO.
    I agree with you that we should never try to villainize, 
not certainly to do anything like that with the fine men and 
women that work in the Government Printing Office. We are just 
looking for their help, and you and Congressman Walden and the 
second panel, to find ways to save money for the taxpayer. But 
thank you so much, both of you, for your testimony.
    We now have time for committee members to ask questions of 
the witnesses. Each member is allotted 5 minutes of questioning 
time. To help each member to track that time, we also will use 
the timing device on the witness table. We will alternate back 
and forth among the majority and minority.
    I will recognize myself first, and then defer to the 
ranking member, Ms. Lofgren.
    It is my understanding that while traditionally when 
Members of Congress testify before a committee or subcommittee, 
we extend the courtesy to them of not grilling them with 
questions. But it is my understanding that Congressman Walden 
would be willing to take a question or two. So I will direct my 
time to Congressman Walden and put the first question to him.
    Congressman Walden, what publications do you think we could 
publish only in electronic format? Are there some on the table 
in front of you?
    Mr. Walden. I would think, first of all, I would look at 
the calendar, the House calendar, which the Clerk maintains all 
the relevant data for the calendar and provides the electronic 
feed to GPO. GPO then charges the House $2.3 million, I am 
told, for the preparation and publication of the calendar. I 
think it is something that could be posted electronically and 
could save us money, and certainly probably in a more 
searchable format than what we have here.
    I was thinking, Mr. Chairman, searchable format means you 
have to, you know, on a printed document look through it, 
electronically just like that. And that would save us money. I 
was also thinking, as I just sat here looking around me, and 
having been a small business owner, the fact that we actually 
have pads printed up to make notes on that somebody is paying 
to put the ink on to say House of Representatives, Washington, 
D.C. The napkin here, I would never preprint napkins for my 
little company. I would have found--you know, these are very 
nice, and I am not criticizing the committee, we all do this 
around here. And I think we really need to just say when we are 
borrowing 42 cents on the dollar, is this something you would 
do if this was your money? So I would start with the calendars.
    Mr. Gingrey. Congressman Honda.
    Mr. Honda. I think that is a great question: What can be 
done electronically only? Being a classroom teacher, and then 
also coming from Silicon Valley, process is kind of an 
important issue. And I would probably engage members of the 
committees and also those who are in GPO to sit down and look 
at the array of things that are done, and then ask ourselves, 
and perhaps poll our own membership, as has been done in the 
past, to find out that which can be done. I wouldn't mind 
having certain things electronically printed, because then I 
can enlarge the print.
    Mr. Walden. I concur with his assessment.
    Mr. Honda. And I think it is important to figure out which 
ones do we contract out for printing and for less of a cost to 
Congress, and that which is done commercially that may be sold 
in our stores downstairs. So those categories would probably 
have to be looked at, too. But I think it is a great question 
because it really moves us towards becoming more refined in 
some of the things that we are doing.
    Mr. Gingrey. I thank both of you for your comments 
regarding that question. We, by the way, will be hearing from 
Silicon Valley in our next panel of witnesses.
    Is it, Congressman Walden, is it just about saving money?
    Mr. Walden. I don't think so, Mr. Chairman. It is about 
saving money; I was intrigued to learn that 68 percent of the 
costs of doing some of the printing, according to my colleague 
here from GPO, is just the setup fees. And I thought to myself, 
so the other part is 32 percent. That is a huge savings.
    Now, you are not going to not print everything, 
necessarily. But what if you were able to cut back your 
printing 10 percent, 5 percent? These are the things you look 
for in small business, things we always look for all the time. 
And what we were doing is, is there a better way? Sometimes 
that requires an up-front investment to get a longer-term rate 
of return that saves you more. Sometimes it is just a matter of 
changing practice. And I think we all are of a mind to embrace 
this technology.
    As chairman of the transition team, I was honored when Eric 
Schmidt came to see me from Google to talk about just 
brainstorming how we might use technology in our committee 
sessions. And we got to talking about how markups occur. And he 
said, What if your amendments popped up on a laptop, and in 
real time as they are adopted, merged into the statute so you 
could actually read the statute as it is being changed? He was 
like, Well, this could be done. This is a software issue. This 
could be managed.
    And by the way, the entire world could watch this process, 
and maybe help us be better legislators by weighing in as we 
went along. Just as we now put all of these hearings up online 
for the public to watch, it is their business and their money. 
What if our markups actually were something more meaningful 
than if you looked at these amendments where strike line 2, add 
``the'' to line 7, delete paragraph 3, move section 7 up? 
Nobody knows what that means. Wouldn't it be great if there 
were a better way?
    And I think the brilliant people behind us could give this 
Congress some real help in how to improve that process. If we 
each had our own laptops or whatever, and you all made progress 
making Internet available around here, it could be a really 
better legislative process.
    Mr. Gingrey. Thank you. Congressman Honda.
    Mr. Honda. Mr. Chairman, I think that is also a great 
question about should everything be a cost consideration.
    I think the other question would be cost benefits. And I 
think that Congress and our government wants to be the 
Nordstrom's of government, where the customer is always right, 
and we like to deliver to our customers.
    So I think the 18,000 copies that the GPO used to make, 
reducing it down to 3,600, and 900 going out to the 
communities, is something that we still need to keep an eye on, 
making sure that the public has access to it, both printed and 
electronically. But that that is available.
    And then I think things like my colleague had mentioned, 
real-time kinds of efforts. It wouldn't be a bad idea to have 
an iPad during our committee hearings when we are looking at 
amendments. Because I look at insert ``the,'' and I am thinking 
what page? You are shifting through. I can do that with an 
iPad.
    Mr. Gingrey. I will just say this, and I know my time has 
expired, and I want to yield to my colleague, Ms. Lofgren. But 
as part of the rules package for the 112th Congress, we did 
make that--change the rules to allow the iPads to be used on 
the House floor.
    Mr. Honda. Right.
    Mr. Gingrey. I am not sure in regard to in committee, but I 
see all my colleagues on both sides of the aisle looking at 
them. So we must have approved it for committee use as well.
    I will now yield to my colleague, Ms. Lofgren, for 5 
minutes.
    Ms. Lofgren. Thank you, Mr. Chairman. And respecting our 
tradition of not grilling our colleagues as witnesses, I will 
just maybe make a couple of comments and invite their 
reflection.
    I think Mr. Walden said something about the Senate. And in 
fact, if the Senate doesn't join us in modernizing, the value 
and cost savings are going to be more limited than they 
otherwise would be. So actually, I am really focused on that, 
and you mentioned it.
    So I think in addition to reaching out to users, as Mr. 
Honda has suggested, we really need to reach out also to the 
United States Senate, that may be a little behind us in terms 
of the embracing of technology.
    The other thing I am thinking about--and would welcome your 
comments--are really twofold. Most of the costs of the 
printing, as Mr. Honda has mentioned, is in the preparation. So 
that is going to be an expense whether there is a single thing 
printed. And it is cheaper to print at the GPO than to print in 
the offices. So anything that people are going to be printing 
we ought to have printed and distributed.
    The question is: How do we define what really isn't 
necessary in terms of printing? And I think we need to reach 
out beyond the House itself for some of those items. For 
example, we have got repository libraries. And although we are 
into, you know, real time, there are actually people around the 
country that are looking at the real copies. And not everybody 
in the world, I hate to say, is online. So we are going to have 
to make a finding of what is going to have to be printed at 
some point anyhow. And the extra copies are tiny compared to 
the production of the first one. So it is really a process that 
I am suggesting, rather than a conclusion that we need to go 
through.
    And the second issue has to do with retention and 
cybersecurity. Mr. Walden and I were talking while we were 
assembling, and he mentioned the old technology of a wire that 
you could play music on. Now, the Library of Congress has that. 
We think of digital as permanent, but it is only as permanent 
as we have the programs to read them. And so that is something 
that we are actually not addressing as a Nation, let alone as a 
Congress. And it has important historical and archival 
implications. And I think that is something we need to reach 
out to the broader community about.
    And then certainly I don't use the calendar very often. 
That is the kind of document that I think probably could go 
online, because it is real time. The archivists aren't looking 
at it. The repository libraries maybe aren't--I don't know. We 
should solicit input. But the opportunity to have a more user-
friendly markup and the like, and also to have that be 
available online so that the public can see exactly what we are 
doing as we are doing it, I think has tremendous potential and 
would really be good for openness in our democratic system.
    So any comment you have on those thoughts, and then I will 
yield back.
    Mr. Walden. If I might respond, I concur with your 
statements both in terms of partnership we need to have with 
the Senate as we move forward--or as you move forward on these 
initiatives, or we do in the House. And also I think just the 
notion of permanency and archival storage is really important 
for historical purposes.
    There are other things, though, that are changing in such 
real time that technology is the better way to go. I was 
thinking that as I was looking and mentioned this Congressional 
Directory. People are changing jobs all the time. The directory 
is printed once a year, is out of date before the ink is dry. 
Now, is it handy to have a hard copy so you have a base number? 
Yeah, but maybe you do that differently then.
    I was also thinking, as I was looking at the Congressional 
Record and the calendar, they don't even have the Web site 
printed on the front. Now, you show me any other material in 
the private sector that is trying to get you do something; I 
will wager, whether it is the cover of a magazine or an 
advertisement, they all have the Web site. Now, maybe it is on 
here and I just missed it, but I don't see it on any of these 
that direct you where to go to the Web site for the House to 
find it. And if we are going to continue printing, at least we 
ought to perhaps--and maybe, again, it is in here. It is not 
obvious to me. So I think technology in some places is a better 
fix, and in other places having a printed copy makes sense. And 
that is what you all get the big bucks to sort out the 
difference. So your surveys are going to be real important.
    Mr. Gingrey. Representative Honda, do you have a comment?
    Mr. Honda. Yes. It is an interesting dialogue, because I 
think when we talk about Web sites, it should be obvious on 
some of our documents. But I thought about our own Web sites 
that we have individually, that we can also refer to documents 
electronically to where our readers or our constituents, 
whoever is tracking us, can be referred to also.
    And in terms of real time, not only real time but access to 
the information should be universal, and not only to the 
interests of congressional Members. So those are the things. 
And calendars, I too, don't use the calendar every day, but I 
suspect that my staff does. So I have to sort of talk to them 
before I make any firm comments. But I think that the process 
will help us get to an answer. And I think one thing I learned 
about in schools is I have to trust the process.
    And then on the archival issues, I think that is important. 
And it sort of reminded me of the near trauma that this country 
went through when we got to Y2K and when we had looked at our 
digital thing and said originally we could have done it in four 
digits rather than two, and then when we got to Y2K we started 
saying, oh, my God, what is embedded in there?
    And so the congressional library serves a wonderful 
function. I don't know if there is a congressional museum. But 
there has got to be someplace where we can access processes 
that were historical, but may be needed in the future so that 
we can solve or anticipate problems in the future, too.
    Mr. Gingrey. Thank you. Thank you, Congressman. I now yield 
5 minutes to my colleague from Florida, Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman. Thank you very much 
for this distinguished panel.
    You know, as sheriff, we went digital. And there was a lot 
of gnashing of teeth as to why it wouldn't work and why we need 
to have copies, why we need to have paper. In the legal 
department that I had that worked for me as sheriff, they would 
buy the statute books. They looked really nice on the shelf. 
But in actuality, the attorneys were utilizing the digital on a 
CD that was a lot less expensive than the hard copies and much 
more relevant because she could actually search. Like I said, 
there was a gnashing of teeth as to why we have to do certain 
things.
    I am going to be interested to hear from the next panel 
particularly about the archival process; you know, how do we 
make sure that we have those documents available for public 
scrutiny off into the future?
    Obviously, on the transparency side I think we would all 
agree that having the ability for the general public to look at 
what we do on a regular basis. And I am intrigued by the 
opportunity, possibly, to as it moves along in the process, to 
see the actual markup change before your eyes. Because you are 
right, I am sitting here reading it; I am going, I don't 
understand what that means. You have any comments?
    Mr. Walden. Yeah, I would. I serve on the Energy and 
Commerce Committee, as does Mr. Gingrey. And I am amazed during 
a markup; we sit and wait while the staff rushes around with 
the--I don't know, somebody on your staff could probably tell 
you--I think you have to make 50 or a hundred copies of every 
amendment and submit it to the committee. Literally, they are 
carting in these boxes of paper and trying to keep piles this 
high so they can quickly distribute it to 50-plus Members. It 
may be a two-line amendment that we have already voted on 
before it is fully distributed because the Clerk has read it 
and it is agreed to. And I assume all that paper gets recycled. 
But you think of each of our offices and anybody that is 
offering amendments, if that process alone were made electronic 
for us, there would be enormous savings.
    Now, the public may need to see copies, and maybe there is 
another way to handle that. But for heaven's sakes, for the 
committee members we ought to have a more simplified and 
efficient system, because there often we wait while the clerks 
literally run around and hand out the amendment. We are 
debating it, and then it is agreed to or rejected because we 
know what is coming in this process. Wouldn't it be great if it 
popped up on your screen, you are able to see how it integrates 
into the statute?
    The Oregon legislature, oftentimes in committee we could 
see how the statute was being amended. So you could actually 
read the statute as you went. Now, I am not a lawyer, but you 
could read the statute as it went, and then you could kind of 
question, well, how does this read then if it says this here? 
And you get a better understanding and better feel for it as 
opposed to debating the concept.
    We are into the weeds a little deeper. I don't know if that 
addresses your question, but that is what we should look at 
getting into.
    Mr. Honda. That is a great question because in 
Appropriations, you know, I will see--I will replace 100 
million with 179 million. I want to know, is that good for me 
or is that bad for me?
    Mr. Nugent. Right.
    Mr. Honda. And electronically, you can get that quickly. Or 
if I have a question, you really need to get the answer 
quickly, because the committee moves forward sometimes very 
quickly, and you need to get a response to make the right 
decision in voting.
    But having said that, to put the master piece together, the 
master copies together, whether it is electronic or not, 
someone has to input all that first. And so if we save 32 
percent and expend 68 percent on staffing at the committee 
level, that is still a savings. But we still have to remember 
that someone has got to put the initial input while we make 
amendments on the bill.
    But I think that there is always a way, if we look at it 
and study it. So I think that this is a very good process that 
we are going through.
    As far as being a sheriff, when I did ride-alongs I had a 
mountain area, and the sheriff's office--this is back in the 
early 1990s--and the sheriff's office up in the hills, he had a 
CB radio, a shortwave, and then cell phones. And he had two 
cell phones because of the way communication was done. But with 
the proper repeating stations and access to information at 
headquarters, they can get their job done quickly, and either 
act as a law enforcement agent or a counselor at the site.
    So I think that it all has benefits. But I think we have to 
look at, you know, what is the bottom line that we have to look 
at, and then factor in the extra costs or how many jobs we will 
be saving and things like that. So it is a worthwhile effort 
that we are in.
    Mr. Walden. Could I add one other thing? Because we are 
focused on sort of calendars and Records and indexes and things 
of the House. Let's not forget in many pieces of legislation we 
demand of agencies that they report to the Congress. And until 
that is removed, they report to Congress. And I know in the 
past there have been efforts to look at whether those reports 
are needed, how they are produced. Some of them used to be 
really glossy, glitzy, expensive, four-color, slick paper.
    And I think as a Congress, on a regular basis we should be 
reviewing a compendium of the reports that we require and 
asking ourselves, are they still necessary? Has the purpose 
been served? And can we eliminate them?
    Ms. Lofgren. Would the gentleman yield?
    Mr. Gingrey. I yield to the gentlewoman.
    Ms. Lofgren. Just a quick follow-up on that. That is a 
really good opportunity for digital reporting. And sometimes a 
picture----
    Mr. Walden. There you go.
    Ms. Lofgren [continuing]. Says more than 50 pages. But 
digital photography is available. So I think that that is 
something that we really ought to utilize the process to 
expand. I thank the chairman.
    Mr. Gingrey. That concludes our questioning for the first 
panel. I would like to thank Congressman Walden, Congressman 
Honda, for your generosity of your time and willingness to take 
questions from the members of the subcommittee. And we thank 
you for that.
    We will now dismiss the first panel and ask the second 
panel to come to the table to be seated.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Walden. Thank you, Mr. Chairman.
    Mr. Honda. It has been enlightening to me. And I just want 
to leave the last message that GPO will do what the House of 
Representatives and the Senate together will be directing them. 
Again, I thank you for this opportunity.
    Mr. Walden. And I will try to get your lawn mowed again, 
sir, soon.
    Mr. Gingrey. Please do. Thank you, Congressmen.
    I would like now to introduce our second panel of 
witnesses. Mr. Thomas Bruce is the co-founder and director of 
the Legal Information Institute, a research and publication 
endeavor of the Cornell Law School. The Legal Information 
Institute's mission is to facilitate public access to legal 
information through the application of technical and editorial 
innovation. The LII was the first legal information site on the 
Web, offering Supreme Court opinions in 1992, and a full U.S. 
Code in 1994. It developed the first XML version of the Code in 
the year 2000--and for those that don't know, XML stands for 
extensible markup language--and will this year release a full 
edition of the Code of Federal Regulations developed in 
collaboration with the Office of the Federal Register and the 
United States Government Printing Office.
    Mr. Bruce was educated at Yale College and the Yale School 
of Drama, and has been, among many other honors, a senior 
international fellow at the University of Melbourne School of 
Law in Australia.
    The second witness on the second panel is Mr. Kent 
Cunningham. Mr. Cunningham is the chief technology officer for 
the Microsoft Corporation. He has been in the field of 
information and communication technologies for over 20 years, 
and has worked directly with vendors and the standards bodies 
through nearly every phase of the evolving communications 
market. He is currently a business development manager for 
Microsoft in the Applied Innovation Group. In this role, he is 
responsible for defining go-to-market strategies and product 
development roadmaps, as influenced by and tailored to meet 
public sector customer needs.
    Mr. Cunningham holds a bachelor of science in electrical 
engineering and communications from ITT Technical College. He 
has an MBA in business strategy and leadership from New York 
Institute of Technology Old Westbury, and an MBA in business 
strategy from Carnegie Mellon University.
    Our last witness of the second panel is Mr. Morgan Reed. 
Mr. Reed is the executive director at the Association for 
Competitive Technology. ACT is an international grassroots 
advocacy and education organization representing more than 
3,000 small and mid-size IT firms from around the world. Mr. 
Reed is a widely sought technology expert, with a background in 
software development, having contributed to several open source 
projects. He also specializes in issues relating to patents, 
copyrights, and intellectual property in the digital age.
    Mr. Reed studied political science at Arizona State 
University. He did graduate research at the University of Utah 
and in Taiwan.

STATEMENTS OF THOMAS BRUCE, RESEARCH ASSOCIATE AND DIRECTOR AT 
     LEGAL INFORMATION INSTITUTE, CORNELL LAW SCHOOL; KENT 
   CUNNINGHAM, CHIEF TECHNOLOGY ADVISOR, U.S. PUBLIC SECTOR, 
  MICROSOFT CORPORATION; AND MORGAN REED, EXECUTIVE DIRECTOR, 
             ASSOCIATION FOR COMPETITIVE TECHNOLOGY

    Mr. Gingrey. This panel has a wealth of knowledge and 
experience, and we thank each of you for being here today. The 
committee has received your written testimony. I will recognize 
each of you for 5 minutes to present a summary of that 
submission.
    To help keep the time, as you heard with the first panel, 
we have a timing device near the witness table. The device will 
emit a green light for 4 minutes, and it will turn yellow when 
1 minute remains. When the light turns red, it means your time 
has expired.
    We will start with the testimony of Mr. Bruce.

                   STATEMENT OF THOMAS BRUCE

    Mr. Bruce. Thank you, Chairman Gingrey, Ranking Member 
Lofgren, members of the committee. I would like to thank you 
for inviting me to appear today and for giving such a nice 
recitation of our corporate resume. I would add to that that we 
continue to work with government on a number of projects, 
including one currently with the Library of Congress to rethink 
some of the model underpinnings of both the THOMAS and the LIS 
systems.
    Last year, our Web site served more than 14 million unique 
individuals, with over 71 million page views of legal 
information. Roughly 22 percent of our referred traffic comes 
to us from government Web sites; notably, the IRS.
    Speaker Boehner and Majority Leader Cantor have already 
voiced support for new electronic data standards at the House, 
including especially the creation of documents in open, 
machine-readable format such as XML.
    Today I would like to say a little about the implications 
of that strategy, and sketch the shape and size of its 
benefits. I would also urge you to consider some specific ways 
to make it happen. The manner of its implementation will 
strongly affect its usefulness to the Congress and to the 
American people.
    The use of open standards to create interoperable, 
accessible legislative information creates four main benefits:
    First, it can make the internal work of Congress faster and 
easier. Many have spoken about that already.
    Second, by reengineering the document lifecycle, it can 
reduce the costs of congressional work.
    Third, it can make the work of Congress easier to find and 
understand. Now, usually when we talk about that kind of 
threshold lowering, we talk about transparency. That is often a 
code phrase for public accountability, which is certainly a 
noble goal. But transparency has another meaning: opening 
legislative data to questions asked for business and 
professional purposes. For example, data about the legislative 
activity that creates and surrounds the Tax Code is as much a 
predictor for the business climate as the weather data provided 
by NOAA is for the climate itself. And that predictive value is 
used to plan business strategy and activities at all scale of 
business. When primary legislative data meets this huge public 
need, it stimulates and shapes business activity at all levels. 
That in turn creates a marketplace for information products and 
services where editorial and technical innovation can be 
rewarded.
    Finally, the use of open standards can help technical 
communities inside and outside government to carry these three 
aims further by making new products and services.
    What is needed to make this happen? Well, first we need to 
clean and open up the data. The data provided under any 
modernization initiative should meet a short list of 
requirements. It should be clean and consistent. It should be 
compliant with open, well-documented standards such as XML. It 
should be clear as to its authority. It should be available in 
bulk through well-documented access methods and APIs. Most of 
all, it should be timely.
    Right now, if you are using the systems that government 
provides to the public, it is very difficult even to work out 
what the current state of the law is. This morning the LII's 
U.S. Code updating feature shows that 988 changes have been 
made to the Tax Code since the last electronic release of a 
full title update by the Office of the Law Revision Counsel. It 
can be as much as 18 months out of date, depending upon where 
we are in the revision cycle, and what has happened in between, 
and various other accidents of the calendar. We can reach these 
goals by implementing standards and creating partnerships.
    First, the House needs to create a model or models for 
legislative data and metadata, one that embraces the entire 
legislative lifecycle. That effort can usefully draw on several 
similar undertakings now underway. It needs to be aimed at both 
the modernization of systems and work flows inside the House, 
and at the free provision of high-quality, open, interoperable 
bulk data to outside innovators and markets.
    The specifications for that project might best be created 
by an advisory group drawn from government, the technology and 
legal publishing sectors, and the legal information science and 
engineering community.
    The second need is for an appropriate framework in which to 
foster public-private partnerships designed to make use of such 
data. Remarkable things are possible when data is carefully 
leveraged to promote both efficiencies and services through 
collaboration between inside and outside stakeholders. 
Collaborative projects make the most sense when they are aimed 
at particular constituencies affected by defined categories of 
legislation. That implies that the best results will be 
achieved by chartering multiple small projects based upon 
public-private partnerships. Development of a suitable 
framework for chartering such projects will be critical.
    I thank you for the opportunity to testify today, and I 
look forward to your questions.
    Mr. Gingrey. Thank you.
    [The statement of Mr. Bruce follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gingrey. We now go to Mr. Cunningham.

                  STATEMENT OF KENT CUNNINGHAM

    Mr. Cunningham. Chairman Gingrey, Ranking Member Lofgren, 
and members of the subcommittee, my name is Kent Cunningham. I 
am the chief technology officer for Microsoft's Federal 
Civilian and Healthcare Group.
    I appreciate today's opportunity to share Microsoft's views 
on how the House can modernize information delivery, improve 
productivity, and reduce paper throughout the legislative 
process.
    The first thing that I would like to openly acknowledge is 
that technology does not solve problems. People and processes 
solve problems. And before any workplace can become truly 
productive, we have to engage the right people and craft the 
optimal processes which we will utilize to reach our collective 
goals.
    During this past year, I have responded to countless 
government RFPs, edited numerous public documents for 
Microsoft, and most recently collaborated to produce my first 
House testimony, all without highlighting, retyping, or even 
printing a single document until this one that I hold in my 
hand today.
    Perhaps of additional interest is that, thanks to the 
technology advancements which I will share with you today, I 
have also been able do all of this while living in Nashville, 
Tennessee, working almost exclusively remotely from Microsoft's 
headquarters and my geographically dispersed teammates.
    Through the use of centralized collaboration platforms, my 
co-workers, partners, and I routinely collaborate to create 
confidential documentation from different corners of the 
country, all while working simultaneously from various devices, 
operating systems, and platforms.
    I firmly believe that the House can also achieve great 
productivity gains through the use of these tools, while 
reducing costs and ensuring confidentiality. As we all know, 
the House is inherently a collaborative body. Collaboration, 
relationships in the House often evolve based on particular 
interests or issues. This means that who you work with on one 
project may very well not be who you are working with on 
another project. And this is why confidentiality and access 
controls must be integral components of any system that the 
House adopts. Today's collaboration platforms can easily 
accommodate these scenarios.
    And in the next few moments, I would like to highlight four 
specific ways in which the House could benefit from a more 
modern and collaborative IT environment.
    First, the House could quickly expand upon its existing IT 
systems by providing unified access to real-time collaboration 
mechanisms such as user presence, instant messaging, and even 
real-time voice and video conferencing for the House Members 
and staff. These tools deliver the capabilities to quickly 
determine who is available for an immediate conversation and 
what might be the best way to engage them for a given scenario.
    Second, the House could deploy technology to improve the 
creation and sharing of digital information. Web-based document 
co-authoring could be utilized to develop and refine 
legislation across multiple authors, offices, and computing 
platforms in real time. If this information were then 
downloaded and shared electronically via e-mail, permissions 
can be assigned to the document itself which controls who can 
view, edit, or modify the content, or even who can copy it, 
paste it, and forward it to others.
    Third, the House could implement enhanced search features 
to enable faster access to more contextual decision-making. For 
example, the House directory could be published in a searchable 
electronic format which makes it easy to discover which offices 
and individuals are working on a particular issue, or find 
someone who has expertise on a particular topic, or even 
perhaps build a mailing list of all LAs who cover a particular 
issue for Members of a State delegation, committee, or party.
    Finally, the House could increase productivity by 
empowering people to work effectively regardless of where they 
are, whether they are in the office or on the go. In fact, many 
Members of the House are commonly adopting a broad range of 
exciting new devices and applications to connect with each 
other already.
    However, many of these tools were designed primarily to 
meet the day-to-day needs of consumers, and not the special 
needs of a government institution, where security, reliability, 
and trust are paramount. As the House considers how to best 
modernize its IT system, it should keep in mind three important 
challenges.
    First is security. The House routinely deals with sensitive 
or confidential information that must remain protected and 
secure.
    Second is document fidelity. Unless the electronic system 
can ensure document fidelity, information or features that are 
embedded within the document could be lost while documents 
traverse various files and platforms. For example, imagine if a 
watermark, including the information that named a document as 
confidential, were lost in this process.
    Third is interoperability. For the House to obtain full 
value from its information technology investments, the various 
applications, devices, and platforms used by Members must be 
able to access and utilize this information easily.
    In conclusion, I am happy to report that the House has 
already laid the foundation for this framework with many of its 
existing infrastructure investments. My written testimony 
details specific measures that the House is well positioned to 
implement over the next 18 months. These include Web-enabled 
document collaboration; shared online work spaces; an 
electronic directory; presence features to enable real-time 
instant messaging, video chat, application sharing, and even 
group teleconferencing; and finally, federation for agency 
communications.
    Again, on behalf of Microsoft, thank you for the 
opportunity to testify today. I look forward to your questions.
    Mr. Gingrey. Thank you, Mr. Cunningham.
    [The statement of Mr. Cunningham follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gingrey. We will now call on Mr. Reed for his 
testimony.

                    STATEMENT OF MORGAN REED

    Mr. Reed. I am going to make sure I eat my own dog food 
here. I am using a nonpaper version today.
    Chairman Gingrey, Ranking Member Lofgren, and distinguished 
members of the committee, I am the executive director of the 
Association for Competitive Technology, or ACT, and we are an 
advocacy and education organization for people who write 
software programs, we refer to them as application developers, 
and providers of information technology services. We represent 
over 3,000 small- and mid-sized IT firms throughout the world, 
and advocate for public policies that help our members leverage 
their intellectual assets, raise capital, create jobs, and 
innovate.
    In discussing this hearing with committee staff, the 
question was posed whether the House could conduct official 
business, especially hearings, using modern technology rather 
than the traditional binder, folder, or sheaf of looseleaf 
paper. Could committee members use a Windows tablet, an iPad or 
a Kindle during a markup or a hearing in the absence of paper? 
The answer is, of course. But this isn't really the whole 
question.
    Instead, the larger question to answer is how can the House 
use technology that is transformative to the way that Members 
of Congress do the work of representing their constituents? And 
``transformative'' may seem like a broad term, but we witnessed 
two different transformative events in the last 13 to 15 years. 
The Blackberry. Every Member of Congress' thumbs is a powerful 
part of their hand now, and the Internet itself.
    So rather than spend 5 minutes of my time on acronyms and 
statistics, I thought I would look at a couple day-in-the-life 
examples of a Member of Congress. So let's look at the typical 
Thursday afternoon after last votes. Members are hurrying to 
the airport, staff has prepared documents for them, and they 
hand them on their way to the airport something that might look 
like that. Now, of course every Member of Congress would rather 
not get on the airplane with this, and rather have a device, 
say this thick, to go with them. But just translating paper 
into electronic form isn't really transformative, other than to 
your chiropractic bill.
    But you know what is transformative is, let's say in here 
is a GAO report that you wanted to take a look at on the plane 
flight home. Instead of looking at it here, you open it up in 
an app. Let's look at one called iAnnotate. It is a PDF. You 
open it up. And instead of just reading it and trying to type 
notes in your Blackberry while you read it on your electronic 
device balanced in your coach seat, you actually can edit it 
with your fingertip right as you travel. You know, you see a 
question here in the report, so you highlight it with your 
finger. And you know, you are not sure where this goes, so you 
send a note and you mark it red so that Ted, your legislative 
director, can see it when it gets back to the office. And you 
know, you have got some graphics and notes that you think you 
should do when the next report comes out. And the beauty of 
this is when you land, this copy, this container of this 
information, is automatically synched up with your office back 
in the district. And so Ted, your LD, can look at all the 
questions in red and answer them in blue so that when you open 
this document up again, you can not only see the questions you 
asked, you can see the answers.
    Let's look at another one, the hearing. We all know that in 
front of you is folders and looseleaf binders and information 
that has been put in place. But we also know what happens when 
a vote happens. Let's say you are in another committee and 
there is a markup. Well, it would be really nice for you to go 
to that next markup and still keep track of what is going on in 
the hearing you just left.
    Well, with TVEyes, for example, which is not even an app--
this is a Web-based program that runs on Windows tablets and 
iPhones and even Blackberry devices--you can see what is going 
on and have an actual video image of what is going on in the 
hearing.
    But you know, that probably bothers your colleagues. So 
instead, real-time transcript. You know, maybe this witness, 
maybe he said something you weren't sure about, and you want to 
ask him a follow-up question. Highlight it with your finger, 
click e-mail and transcript, and the staff who is still in the 
committee hearing can see the question you asked. And when you 
show back up, you have got a follow-up question ready, with the 
supporting documentation attached.
    This is happening now. This can be done. But I think it is 
very critical to look at what my colleague here, Mr. 
Cunningham, has talked about, which is the ability to provide 
all of this information with an infrastructure that is 
enterprise-ready and secure.
    Because I will give you another example. Let's step it up a 
game. Let's say that Member on the Thursday trip that you went 
back for the district work period, your first stop was actually 
at an event for your constituents. And there are five members 
that are going to be there, five people from your district who 
are going to be there, that have had contact with your district 
office. Imagine if you can walk in, know who they are, know who 
talked to them in your office, the status of their request, and 
change from those times when you have always had to say, ``We 
will get back to you'' to saying, ``We are here for you now.''
    I look forward to your questions.
    Mr. Gingrey. Thank you, Mr. Reed.
    [The statement of Mr. Reed follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gingrey. And I thank all three of the witnesses. We now 
have time for committee members to ask questions of the three 
witnesses. Each member is allotted 5 minutes to question you. 
We help each member to track the time as well, where we use the 
timing device on the witness table. We will alternate back and 
forth between the majority and the minority. And I will begin 
by recognizing myself for 5 minutes.
    I am going to direct my first question to Mr. Bruce. I will 
ask each of you a question. Try to keep your answers brief, I 
have only got 5 minutes, because I have one last question that 
I would like to maybe get a comment from all three of you.
    First question, Mr. Bruce. Give one example of how 
technology can increase practical transparency. That is not a 
trick question. You might refer to Mr. Reed's posters. But in 
regard to this idea of improving our technology and going 
digital just as practically as we can, transparency of course 
is a huge goal, as you know. And we are always looking for an 
opportunity to make sure that things are transparent in a 
bipartisan way and for our constituents. So that is why I asked 
that question.
    You know, let me move to this. In your testimony you talk 
about how the Congressional Record Daily Digest is sometimes 
too detailed, and other times not detailed enough. How could 
users get just the right amount of information?
    Mr. Bruce. Okay. Well, if we reconceived the Congressional 
Daily Digest as a document that is linked out to other 
information rather than existing in itself, it could be in its 
root form, the form that is transmitted to you, a much more 
compacted document, from which you could then click through to 
detail on any matter--voting, for example--for which you wanted 
detail, rather than having to read through it page by page. The 
idea is to create summaries that are linked out to broader 
bases of data that are of interest to the user. And you can 
only obviously do that in digital form.
    If you have ever worked with newspaper reporters, you know 
they use AP pyramidal style. This is AP pyramidal style created 
electronically. You start with the small lead and link out to 
greater and greater levels of detail as the user requires.
    Mr. Gingrey. Thank you.
    Mr. Cunningham, we all read about hackers and data being 
compromised. What is Microsoft--what is your company doing to 
make information more secure?
    Mr. Cunningham. Well, sir, first the foundational 
component, Mr. Chairman, to any collaboration environment is a 
shared work space. And those shared work spaces must have 
controls placed upon them to provide access to the people--for 
the people to have access to those documents, the people that 
are working with you on any specific project. The controls are 
placed into the system to give us capabilities to determine who 
has accessed the document, who has modified what documents.
    Interestingly, we are in a similar business, in that we are 
in the intellectual property business. So these controls are 
very important to us as well. And at the same time, we use a 
technology called information rights management, which then 
says if I distribute that electronically via e-mail, I have 
controls available that restrict who can open the e-mail, who 
can forward the e-mail, who can edit that, who can forward that 
on to others.
    So from every step, the security actually is part of the 
document, part of the content itself, where we are validating 
who accesses it, the network style they are accessing it 
across, and what they are trying to do with that content.
    Mr. Gingrey. Thank you, Mr. Cunningham.
    Mr. Reed, this is a similar question, but more pertaining 
to your testimony in regard to mobile devices. And by the way, 
I think the last thing you mentioned, I don't know if I can 
hold this up and show you, but we can actually look at this 
monitor and tell whether or not you shaved this morning. We 
also can follow our other committees. And that is a very good 
point that you brought up.
    But my question is security is, of course, a hugely 
important issue. Mr. Cunningham touched on that. How can data 
on these mobile applications be protected?
    Mr. Reed. Well, I actually think that part of it is 
understanding how our mobile devices actually work with the 
kind of enterprise-grade infrastructure that Mr. Cunningham's 
company is creating. We actually rely on them to provide a lot 
of the backbone infrastructure for how we then contact a 
product that the House has created. We tie into it, we make a 
request for the information, and that information is given to 
us and is securitized by the House and its enterprise-grade 
infrastructure, given to us. We then display it. And the real 
question is to make sure that our mobile devices don't create 
new kinds of information silos.
    So it will be very critical that as the House decides on 
rules, how my mobile devices might interact with your 
enterprise infrastructure, that you establish good rules for 
our behavior as well as for the behavior of the enterprise-
grade stuff on the back end.
    So I think that the first answer to the question is you 
start with security by design and that you recognize that 
although Congressman Walden's point about small business 
behavior was critical, that the House is at the enterprise 
level, and not strictly like a small business with only eight 
employees, and that we need to respect that and build with that 
in mind.
    Mr. Gingrey. I see my time has expired, so I won't ask that 
last question of all three of you. I will go ahead and defer to 
my colleague from California, Ms. Lofgren, for her 5 minutes of 
questioning.
    Ms. Lofgren. Thank you, Mr. Chairman. And I will be 
relatively quick. I know votes are coming up soon. I think this 
testimony has been very helpful. And I do appreciate each of 
the witnesses as well as our colleagues who preceded you.
    Listening to you and Mr. Reed, it was so fun to look at 
your exhibits, and I think we all want them. I am mindful that 
Members of Congress are elected by their constituents for a lot 
of reasons, and rarely is it because of their capacity to be 
technically proficient. So we are going to be able to move 
forward as an institution only so far as we can move our 
colleagues along. And I know, I am not going to mention any 
names, some of our colleagues who are quite intimidated by 
technology. I would say it is a minority at this point, but 
they have just as much right as those of us who like technology 
to participate in the legislative process.
    So a component of this has to be dealing with the people 
themselves. And if we can't get people to use it, we are not 
going to be able to move there. I just think it is important, 
before our colleagues start talking to us about this, that we 
say that and we understand and know that.
    That goes also to some extent for the population itself. I 
mean about a quarter of the American population does not 
currently have adequate access to the Internet. And they have 
just as much right as Americans to know about what is going on 
in their government as the people who do have access to the 
Internet.
    Now, we are making big strides, and we want to deploy 
broadband, and certainly rural areas are most disadvantaged, 
but there are inner-city areas as well, but I am mindful that 
that element of our society needs to be included.
    As we move forward, I am thinking about not just those 
issues, but also some principles that need to be adopted. We 
need to have open source. We need to have interoperable. We 
need to have security. And understanding the security most--I 
don't want to say that--what can we say that are not 
classified? People are our weak link in cybersecurity. That 
goes back to my initial statement, which is not every Member or 
staffer is necessarily understanding the systems that they are 
using. And that poses challenges to our cybersecurity 
environment.
    So I am wondering in view of your testimony, which is 
really welcome, to aggressively move forward, how do you 
incorporate these issues that I have just outlined? Or do you 
think I have got them wrong?
    Mr. Bruce. If I may, I think that the digital divide 
problem that you are mentioning, first of all, the 23 percent 
number that you mentioned is heavily skewed, as we know, both 
toward the elderly and toward lower-income households. And it 
may well be that the information needs of those people and 
those households are equally definable.
    It seems that that might separate out into two different 
classes of problem. One are areas where as a matter of public 
policy we want to have some sort of universal service mandate, 
things that we want to just make generally available to people 
probably through intermediaries.
    Then there is also the need for targeted programs that gets 
specific kind of information to specific populations that may 
be Internet-disadvantaged. Public libraries do a great deal 
along those lines.
    Now, what doesn't make a whole lot of sense to me is to 
imagine that the minimal number of printed copies that we are 
now requiring to be generated as a statutory matter are going 
to reach a population of 300 million people. I don't think they 
do. But as long as we have digital information available, there 
is the possibility of localized print on demand, which I think 
holds a lot of promise for the sorts of problems you are 
discussing.
    Mr. Cunningham. Ms. Lofgren, if I could add as well, I 
spent several years as a technical trainer myself. And when you 
work for a company such as Microsoft, you quickly learn how 
many of your friends are a little bit technically adept as 
well, and family members, and those who are not.
    One of the things that we have learned is that versus 
presenting people with countless interfaces and applications, 
if you can create some fashion of a standard tool, a standard 
platform, a standard interface using these open standards that 
you mentioned, but not present them with a different interface 
and a different tool every time they need information to do 
their job, they will proceed much faster.
    The last thing I would like to mention is we certainly 
participate and collaborate and leverage a lot of open source 
at Microsoft as well. But I would like to mention and just toss 
out that you can certainly be open source but be closed 
platform. And that is certainly not what we want. 
Interoperability is key to success in this model.
    Mr. Gingrey. Mr. Reed, did you want to comment quickly, 
please?
    Mr. Reed. Just quickly, I would say that in my written 
testimony I talk about equity by design. And I think that 
addresses what the Congressman has gone to. And I want to echo 
what Mr. Cunningham said. I think that the design should be 
goals-based rather than technology-based. And this is for terms 
like ``open source,'' which has a broad meaning.
    Last but not least, I say that we have to remember that 
what I am doing here and what our folks are doing here is the 
tail, and not the dog. So we need to remember that the tail 
can't wag the dog here, the business of the House needs to be 
the first and primary focus, and that we will provide that 
which makes it better.
    Mr. Gingrey. Thank you. And now we will turn to Mr. Nugent 
for his questions.
    Mr. Nugent. Mr. Cunningham, one of the questions, in 
particularly some of the districts that do not have broadband 
availability, how would we operate within that confine?
    Mr. Cunningham. For those who do not have broadband that 
are within the House themselves, but have access to the 
infrastructure while they are here--I heard earlier about a 
wireless network--there are tools which will give you the 
capability to provide real-time synchronization of documents 
and applications while you are here within the facility, even 
if you don't know you need that document. Maybe you are working 
on three projects, you are on multiple committees; all of that 
information would be updated on your device before you go back 
to the rural suburbs where I live, for example, and maybe don't 
have that type of access. So the information would be there 
when you want it on that device. And it can actually be very 
slowly streamed in the background from the device.
    If you do go back to your house, your location, and then 
need to access or even update a very large document, that can 
be done as a background process while you are still continuing 
to use your computer for other tools.
    Mr. Nugent. To Mr. Reed, every day I receive a stack of 
correspondence that I have to read and then also change. The 
staff writes a response, and then I will change it. So I was 
quite intrigued by the iAnnotate ability, particularly if I had 
an iPad, which I don't. I think you heard that, right? Because 
it was always a question. You know, when you have that hard 
copy, I can sit there and scratch through it, make a note. And 
I was unaware of iAnnotate. Is that commercially available? I 
mean is that a----
    Mr. Reed. Yes. In fact, not to plug one specific product, 
because we have got a lot of folks who do similar stuff, but 
iAnnotate is actually a product that has been customized for 
some city councils and some locations for exactly this purpose. 
I mean, it obviously relies on the ability to securitize the 
data on the back end. But as far as your ability to do exactly 
what I showed you, I am happy to come into your office and give 
you a demo, because it is pretty cool stuff.
    Mr. Cunningham. Can I touch on that one just for a second, 
sir?
    Mr. Nugent. Yes.
    Mr. Cunningham. Very similar controls also exist natively 
in the Microsoft Word products, to be able to annotate, do the 
yellow markup and the red markup, as was mentioned earlier; be 
able to determine who is simultaneously editing a document; 
look to see who those editors are; read all the revisions.
    So there are also in many cases, as have been discussed 
here today, opportunities to leverage tools which the House 
already has and already has deployed to do these types of 
things.
    Mr. Nugent. As the ranking member had mentioned before, we 
all have different skills when it comes to technology. The more 
complicated, it won't be used. If it is simple for somebody 
like me to utilize it, then it is more likely to be utilized. 
But if it is complicated, it just makes it much more difficult. 
So the seamlessness of it obviously is hugely important to the 
end user.
    I know one issue on security, I am still--I am always 
concerned about security and how do we utilize that to make 
sure that the documents that we are working on do not get 
corrupted? And how do we know at the end of the day--I know 
watermarks--how do we know at the end of the day that is the 
correct document that we worked on? I mean what are the 
security features?
    Mr. Cunningham. So there are absolutely--there are 
versioning features that you can use in the various products. 
We can go back to a previous version of a document if you would 
like to. But at the end of the day the real question becomes: 
Are we using open standards as we transfer that document from 
one device to another?
    So as I was creating this testimony today, actually I used 
a tool which is available on multiple platforms. That tool uses 
standards-based such as XML and Open XML, which were mentioned 
here earlier today, to make sure that as I edit that from my 
iPad, my cell phone, my Windows PC, that document fidelity is 
maintained. And it is making sure that we rely on those types 
of standards and controls to make sure that we do not have 
document fidelity issues.
    Mr. Reed. I would say that I actually did exactly what he 
said. So I wrote it in Word on a PC, and then I translated it--
I sent it over via Dropbox to my iPad, which is an Apple 
product from a different company, and it is open and it shows 
docx at the end. So I am using an open standard to move it 
between multiple platforms, multiple devices, and through the 
cloud. So exactly your question, I am doing it right here right 
now.
    Mr. Nugent. That was always a concern when you get into 
closed systems, we are held hostage in regards to cost. So we 
certainly want whatever we do need to be on open platform.
    Thank you very much. I appreciate your testimony.
    Mr. Gingrey. Thank you, Mr. Nugent.
    I would like to now enter two documents into the hearing 
record. The first is a statement from Chairman Dreier of the 
Rules Committee.
    The second is a statement from Chairman Hastings of the 
Natural Resources Committee.
    Hearing no objection to that, so ordered.
    [The statement of Mr. Dreier follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [The statement of Mr. Hastings of Washington follows:] 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gingrey. The Government Printing Office has provided 
information that up to 70 percent of the costs of publications 
is creating the PDF file prior to printing the first copy.
    I would like to thank Chairman Dreier for submitting his 
statement that describes the work of the Rules Committee to 
automate its markup processes. This approach shows great 
benefit for the Rules Committee, and we should examine how we 
can apply this approach more generally in the House of 
Representatives.
    And I also would like to thank Chairman Hastings for his 
statement describing the practical steps the Natural Resources 
Committee uses to reduce the cost of producing hearings. 
Committees should consider how to apply these lessons. And I 
appreciate the unanimous consent to include these two 
statements in the record.
    I want to finally, of course, thank all of the witnesses on 
the second panel, and for the members of the Oversight 
Subcommittee of the Committee on House Administration for their 
participation as well.
    I think this has been a very, very good hearing, with a lot 
of useful information. Be sure and leave your business cards 
behind and your e-mail so we can contact you. We may very well 
want all three of you in our respective offices to learn how to 
better use some of this technology.
    But, again, the purpose of the hearing is once again to 
look for ways that we can in a very practical manner save money 
for the taxpayer in regard to the Government Printing Office. 
As I said in my earlier remarks, wonderful men and women, 
Federal employees, many of whom have spent their entire 
careers, as do other Federal employees in the many agencies, 
over 60 of the Federal Government. But we have to--we have to 
as an obligation to the taxpayer, to our constituents, when we 
are sitting on $14.3 trillion worth of debt, long-term debt, 
not accumulated overnight of course, several administrations 
have their fingerprints on that--and Congresses I should say--
but it is time to stop. I mean we can't continue to spend 40 
percent more than we take in in revenue. So that is really what 
this is all about. And I appreciate the bipartisan spirit of 
cooperation and testimony. And we are going to look for best 
practices and make sure that we don't throw the baby out with 
the bath water. I just had to use that expression. As an OB/GYN 
for 31 years, I like that one.
    Thank you all very much. This hearing is now adjourned.
    [Whereupon, at 11:33 a.m., the subcommittee was adjourned.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




</pre></body></html>
